OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AP.722OI

JANUARY 2I,2O2I

CASENO. CR-20-126
V. S'TATE OF ARKANSAS

RE,: SUPREME COURT

J. P.

THE ARKANSAS SUPREME COURT ISSUED THE FOLLOWING ORDER TODAY IN THE
ABOVE STYLED CASE:

..APPELLANT'S PETITION FOR REVIEW IS DENIED."

CC:

BEN MOTAL

KAREN VIRGINIA WALLACE, ASSISTANT ATTORNEY GENERAL
VAN BUREN COLTNTY CIRCUIT COURT
(CASE NO. 71JV-le-2s)

A1

OFFICE OF THE CLERK
ARKANSAS COURT OF APPEALS
625 MARSHALL STREET
LITTLE ROCK, AR722O1

DECEMBER9,2O2O

RE: COURT OF APPEALS CASE NO. CR-20-126
J.P. V. STATE OF ARKANSAS

THE ARKANSAS COURT OF APPEALS ISSUED THE FOLLOWING ORDER TODAY IN
THE ABOVE STYLED CASE:
..APPELLANT'S PETITION FOR REHEARING IS DENIED."
SINCERELY,

BEN MOTAL
BRAD NEWMAN, ASSISTANT ATTORNEY GENERAL
VAN BUREN COLINTY CIRCUIT COURT
(71JY-t9-2s)

A2

ARKANSAS COURT OF APPEALS
DIVISION II
No. CR-20-126

Opinion Delivered

JP
APPELLANT
V.

October 28, 2020

APPEAL FROM THE VAN BUREN
COUNTY CIRCUIT COURT
[NO. 71JV-19-25]

STATE OF ARKANSAS
APPELLEE

HONORABLE TROY BRASWELL,
JUDGE
AFFIRMED

BRANDON J. HARRISON, Judge
The State alleged that JP, a teenager, caused substantial inconvenience to the owners
of a vehicle by trying to open the door of a locked SUV parked near a boat dock. The
substantial inconvenience came when the vehicle owners left a docked boat to detain JP
and his cousin for thirty minutes until law enforcement officers arrived after one or more of
the boys tried to enter the locked SUV by pulling on one of the door handles. The case
was tried to the Van Buren County Circuit Court, which adjudicated JP delinquent.
JP challenges the sufficiency of the State’s evidence against him. He argues that
unsuccessfully trying to open a locked vehicle door was not “tampering with property” and
did not cause a substantial inconvenience to the owner. He also contends that the court’s
factual findings are not supported by proof beyond a reasonable doubt given the primary
witness’s self-contradictory testimony about whether it was JP or his cousin who pulled on
the door handles.

A3

We do not decide the merits of JP’s arguments in this appeal because they are
procedurally barred. The bar is that JP did not move for dismissal at the close of all the
evidence as required by Arkansas Rule of Criminal Procedure 33.1(b); his challenge to the
sufficiency of the evidence is therefore not preserved for review.
JP asserts that his challenge to the sufficiency of the evidence is properly preserved
for appellate review and that Rule 33.1’s requirements substantially infringe on his federal
constitutional rights to due process, freedom from self-incrimination, right to counsel, and
the presumption of innocence. In JP’s view, a “simple review of the record dooms the
State’s [preservation] argument” because he moved to dismiss at the close of the
prosecution’s case. He argues,
To put the proverbial icing on the cake, defense counsel even came
back after the close of the evidence and, in response to the prosecutor’s
attempt to explain why the evidence was sufficient to sustain the charge,
exhorted: “Your Honor, I would just add that again I would say that the
purpose of this law, including substantial inconvenience, is not for this. I
would just say that, and nothing about it was inconvenience. There was
nothing done to the vehicle. There was nothing harmed. There was nothing
missing.”
JP moved to dismiss at the close of the State’s case. But did he renew that motion
to dismiss at the close of all the evidence? The parties dispute whether the following
colloquy occurring during the adjudication trial was a renewal of JP’s motion to dismiss,
which happened after he finished testifying in his own defense.
THE COURT:

Any other witnesses?

DEFENSE ATTORNEY:

No, Your Honor.

THE COURT:

Okay. All right, so I assume no rebuttal Mr.
Brown?

2

A4

PROSECUTING ATTORNEY:

That’s correct, Your Honor, no rebuttal.

The court asked the parties questions about the criminal-mischief statute that JP and his
cousin allegedly violated.1 The court specifically asked the attorneys, “What was the
tampering?” The prosecuting attorney responded that the “tampering would be the pulling
on the door handles of the vehicle.” The prosecutor argued further that the State was
proceeding under an accomplice-liability theory so “it doesn’t really matter so much which
party did it [JP or his cousin] or that we can’t actually establish which party did it.” In the
State’s view, both juveniles were responsible because one pulled on the door handle and the
other drove a motorcycle that transported the so-called door puller.
When asked whether he had anything to add, JP’s attorney said that there was no
inconvenience to the owner, that nothing was harmed, that no repairs were needed, and
that nothing was missing. The court disagreed, stating that the owners “had to miss the rest
of their lake day” and had to wait and talk to law enforcement. JP’s attorney argued that JP
“was simply playing a prank[.]” The court said, “Okay. All right, I’ll be in recess for about
five minutes, review my notes and the law and I’ll be right back with you.” The circuit
judge returned to the courtroom and adjudicated the two juveniles delinquent.
We agree with the State that JP failed to renew his motion to dismiss. Our supreme
court has interpreted Rule 33.1’s timing element “close of the whole case” to mean “after
the last piece of evidence has been received.” King v. State, 338 Ark. 591, 595, 999 S.W.2d
183, 185 (1999). After JP testified, it was clear that there would be no rebuttal testimony—
1

If the State had charged JP as an adult, JP’s behavior would constitute criminal
mischief in the second degree, which is a Class B misdemeanor. Ark. Code Ann. § 5-38204(a)(2) (Repl. 2013).
3

A5

meaning that the last piece of evidence had been received. JP then failed to renew his
motion to dismiss after the last piece of evidence had been received. The State immediately
began its closing argument in response to the court’s questions about the statute.
A similar situation happened in Jones v. State, 347 Ark. 409, 415, 64 S.W.3d 728, 732
(2002), where the supreme court did not reach the merits of the juvenile’s appeal. The
supreme court held that a juvenile’s failure to renew his motion for directed verdict after
the close of all the evidence in a delinquency proceeding forecloses any appellate review of
the sufficiency of the evidence. Id. at 416, 64 S.W.3d at 733. We are bound by Jones and
therefore decline to decide this appeal’s merit because JP failed to move to dismiss at the
close of all the evidence.
Regarding JP’s challenge to the constitutionality of Rule 33.1, this argument was
raised for the first time on appeal, so it is likewise procedurally barred. State v. McCormack,
343 Ark. 285, 291, 34 S.W.3d 735, 738–39 (2000).
JP’s challenge to the State’s proof was not properly preserved under Arkansas Rule
of Criminal Procedure 33.1. We therefore affirm his delinquency adjudication without
deciding the merit of his sufficiency arguments, which include some accomplice-liability
points.
Affirmed.
SWITZER and WHITEAKER, JJ., agree.

4

A6

JP v. State, 2020 Ark. App. 493 (Ark. App. 2020)

2020 Ark. App. 493

We do not decide the merits of JP's
arguments in this appeal because they are
procedurally barred. The bar is that JP did
not move for dismissal at the close of all the
evidence as required by Arkansas Rule of
Criminal Procedure 33.1(b); his challenge to
the sufficiency of the evidence is therefore not
preserved for review.

JP APPELLANT
v.
STATE OF ARKANSAS APPELLEE
No. CR-20-126
ARKANSAS COURT OF APPEALS
DIVISION II

JP asserts that his challenge to the
sufficiency of the evidence is properly
preserved for appellate review and that Rule
33.1's requirements substantially infringe on
his federal constitutional rights to due
process, freedom from self-incrimination,
right to counsel, and the presumption of
innocence. In JP's view, a "simple review of
the record dooms the State's [preservation]
argument" because he moved to dismiss at
the close of the prosecution's case. He argues,

October 28, 2020
APPEAL FROM THE VAN BUREN COUNTY
CIRCUIT
COURT
[NO. 71JV-19-25]
HONORABLE TROY BRASWELL, JUDGE
AFFIRMED
BRANDON J. HARRISON, Judge

To put the proverbial icing on
the cake, defense counsel even
came back after the close of the
evidence and, in response to the
prosecutor's attempt to explain
why the evidence was sufficient
to sustain the charge, exhorted:
"Your Honor, I would just add
that again I would say that the
purpose of this law, including
substantial inconvenience, is
not for this. I would just say
that, and nothing about it was
inconvenience.
There
was
nothing done to the vehicle.
There was nothing harmed.
There was nothing missing."

The State alleged that JP, a teenager,
caused substantial inconvenience to the
owners of a vehicle by trying to open the door
of a locked SUV parked near a boat dock. The
substantial inconvenience came when the
vehicle owners left a docked boat to detain JP
and his cousin for thirty minutes until law
enforcement officers arrived after one or
more of the boys tried to enter the locked
SUV by pulling on one of the door handles.
The case was tried to the Van Buren County
Circuit Court, which adjudicated JP
delinquent.
JP challenges the sufficiency of the
State's evidence against him. He argues that
unsuccessfully trying to open a locked vehicle
door was not "tampering with property" and
did not cause a substantial inconvenience to
the owner. He also contends that the court's
factual findings are not supported by proof
beyond a reasonable doubt given the primary
witness's self-contradictory testimony about
whether it was JP or his cousin who pulled on
the door handles.

JP moved to dismiss at the close of the
State's case. But did he renew that motion to
dismiss at the close of all the evidence? The
parties dispute whether the following
colloquy occurring during the adjudication
trial was a renewal of JP's motion to dismiss,
which happened after he finished testifying in
his own defense.

Page 2
-1-

A7

JP v. State, 2020 Ark. App. 493 (Ark. App. 2020)

THE COURT:
witnesses?
DEFENSE
Your

Any

other

We agree with the State that JP failed to
renew his motion to dismiss. Our supreme
court has interpreted Rule 33.1's timing
element "close of the whole case" to mean
"after the last piece of evidence has been
received." King v. State, 338 Ark. 591, 595,
999 S.W.2d 183, 185 (1999). After JP testified,
it was clear that there would be no rebuttal
testimony—

ATTORNEY: No,
Honor.

THE COURT: Okay. All right, so
I assume no rebuttal Mr.
Brown?
Page 3

Page 4
PROSECUTING ATTORNEY:
That's correct, Your Honor, no
rebuttal.

meaning that the last piece of evidence had
been received. JP then failed to renew his
motion to dismiss after the last piece of
evidence had been received. The State
immediately began its closing argument in
response to the court's questions about the
statute.

The court asked the parties questions about
the criminal-mischief statute that JP and his
cousin allegedly violated.1 The court
specifically asked the attorneys, "What was
the tampering?" The prosecuting attorney
responded that the "tampering would be the
pulling on the door handles of the vehicle."
The prosecutor argued further that the State
was proceeding under an accomplice-liability
theory so "it doesn't really matter so much
which party did it [JP or his cousin] or that
we can't actually establish which party did it."
In the State's view, both juveniles were
responsible because one pulled on the door
handle and the other drove a motorcycle that
transported the so-called door puller.

A similar situation happened in Jones v.
State, 347 Ark. 409, 415, 64 S.W.3d 728, 732
(2002), where the supreme court did not
reach the merits of the juvenile's appeal. The
supreme court held that a juvenile's failure to
renew his motion for directed verdict after the
close of all the evidence in a delinquency
proceeding forecloses any appellate review of
the sufficiency of the evidence. Id. at 416, 64
S.W.3d at 733. We are bound by Jones and
therefore decline to decide this appeal's merit
because JP failed to move to dismiss at the
close of all the evidence.

When asked whether he had anything to
add, JP's attorney said that there was no
inconvenience to the owner, that nothing was
harmed, that no repairs were needed, and
that nothing was missing. The court
disagreed, stating that the owners "had to
miss the rest of their lake day" and had to
wait and talk to law enforcement. JP's
attorney argued that JP "was simply playing a
prank[.]" The court said, "Okay. All right, I'll
be in recess for about five minutes, review my
notes and the law and I'll be right back with
you." The circuit judge returned to the
courtroom and adjudicated the two juveniles
delinquent.

Regarding JP's challenge to the
constitutionality of Rule 33.1, this argument
was raised for the first time on appeal, so it is
likewise procedurally barred. State v.
McCormack, 343 Ark. 285, 291, 34 S.W.3d
735, 738-39 (2000).
JP's challenge to the State's proof was not
properly preserved under Arkansas Rule of
Criminal Procedure 33.1. We therefore affirm
his
delinquency
adjudication
without
deciding the merit of his sufficiency
arguments, which include some accompliceliability points.
-2-

A8

JP v. State, 2020 Ark. App. 493 (Ark. App. 2020)

Affirmed.
SWITZER and WHITEAKER, JJ., agree.
Ben Motal, for appellant.
Leslie Rutledge, Att'y Gen., by: Brad
Newman, Ass't Att'y Gen., for appellee.
-------Footnotes:
If the State had charged JP as an adult,
JP's behavior would constitute criminal
mischief in the second degree, which is a
Class B misdemeanor. Ark. Code Ann. § 5-38204(a)(2) (Repl. 2013).
1.

--------

-3-

A9

Arkansas Rule of Criminal Procedure 33.1:
Rule 33.1. Motions for Directed Verdict.
(a) In a jury trial, if a motion for directed verdict is to be made, it shall be made at the
close of the evidence offered by the prosecution and at the close of all of the evidence. A
motion for directed verdict shall state the specific grounds therefor.
(b) In a nonjury trial, if a motion for dismissal is to be made, it shall be made at the close
of all of the evidence. The motion for dismissal shall state the specific grounds therefor.
If the defendant moved for dismissal at the conclusion of the prosecution’s evidence, then
the motion must be renewed at the close of all of the evidence.
(c) The failure of a defendant to challenge the sufficiency of the evidence at the times and
in the manner required in subsections (a) and (b) above will constitute a waiver of any
question pertaining to the sufficiency of the evidence to support the verdict or judgment.
A motion for directed verdict or for dismissal based on insufficiency of the evidence must
specify the respect in which the evidence is deficient. A motion merely stating that the
evidence is insufficient does not preserve for appeal issues relating to a specific
deficiency such as insufficient proof on the elements of the offense. A renewal at the close
of all of the evidence of a previous motion for directed verdict or for dismissal preserves
the issue of insufficient evidence for appeal. If for any reason a motion or a renewed
motion at the close of all of the evidence for directed verdict or for dismissal is not ruled
upon, it is deemed denied for purposes of obtaining appellate review on the question of
the sufficiency of the evidence.

A 10

United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War
or public danger; nor shall any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in any criminal case to be
a witness against himself, nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without
just compensation.
United States Constitution, Amendment VI:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defense.
United States Constitution, Amendment XIV, Section 1:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

A 11

NON-EXHAUSTIVE LIST OF RECENT PUBLISHED
APPELLATE DECISIONS APPLYING ARKANSAS RULE 33.1
(2018-2021)
Ford v. State, 2021 Ark. App. 276 (Ark. App. 2021)
Smith v. State, 2021 Ark. App. 255 (Ark. App. 2021)
Staggs v. State, 2021 Ark. App. 259 (Ark. App. 2021)
Clark v. State, 2021 Ark. App. 252 (Ark. App. 2021)
Johnson v. State, 2021 Ark. App. 107 (Ark. App. 2021)
McCree v. State, 2021 Ark. App. 105 (Ark. App. 2021)
Heverly v. State, 2021 Ark. App. 106 (Ark. App. 2021)
Wynn v. State, 2021 Ark. App. 132 (Ark. App. 2021)
Porchay v. State, 616 S.W.3d 699 (Ark. App. 2021)
Boston v. State, 613 S.W.3d 764 (Ark. App. 2020)
Lambert v. State, 613 S.W.3d 768 (Ark. App. 2020)
Keisler v. State, 2020 Ark. App. 495 (Ark. App. 2020)
Smith v. State, 2020 Ark. App. 374 (Ark. App. 2020)
Ewells v. State, 2020 Ark. App. 321 (Ark. App. 2020)
Thomas v. State, 2020 Ark. App. 307 (Ark. App. 2020)
Neal v. State, 2020 Ark. 245 (Ark. App. 2020)
Benton v. State, 2020 Ark. App. 223 (Ark. App. 2020)
Carpenter v. State, 2020 Ark. App. 202 (Ark. App. 2020)
Thomas v. State, 2020 Ark. App. 200 (Ark. App. 2020)
Riley v. State, 2020 Ark. 99 (Ark. 2020)
Turley v. State, 2020 Ark. App. 118 (Ark. App. 2020)
Buffington v. State, 2020 Ark. App. 97 (Ark. App. 2020)
Henderson v. State, 2020 Ark. App. 96 (Ark. App. 2020)

A 12

Garner v. State, 2020 Ark. App. 101 (Ark. App. 2020)
Steen v. State, 2020 Ark. App. 73 (Ark. App. 2020)
Chambers v. State, 2020 Ark. App. 54 (Ark. App. 2020)
Richardson v. State, 2020 Ark. App. 25 (Ark. App. 2020)
Peoples v. State, 590 S.W.3d 783 (Ark. App. 2019)
Groomes v. State, 586 S.W.3d 196 (Ark. App. 2019)
Warren v. State, 567 S.W.3d 105 (Ark. App. 2019)
Daniels v. State, 588 S.W.3d 407 (Ark. App. 2019)
B.T. v. State, 588 S.W.3d 387 (Ark. App. 2019)
Hull v. State, 2019 Ark. App. 505 (Ark. App. 2019)
Adway v. State, 587 S.W.3d 617 (Ark. App. 2019)
Webb v. State, 587 S.W.3d 252 (Ark. App. 2019)
Gillard v. State, 586 S.W.3d 703 (Ark. App. 2019)
Perea v. State, 586 S.W.3d 690 (Ark. App. 2019)
Montgomery v. State, 586 S.W.3d 188 (Ark. App. 2019)
Avery v. State, 585 S.W.3d 742 (Ark. App. 2019)
Thompson v. State, 2019 Ark. App. 391 (Ark. App. 2019)
Sorum v. State, 582 S.W.3d 18 (Ark. App. 2019)
Bowman v. State, 574 S.W.3d 235 (Ark. App. 2019)
Jones v. State, 2019 Ark. App. 219 (Ark. App. 2019)
Gadsden v. State, 570 S.W.3d 527 (Ark. App. 2019)
Walker v. State, 571 S.W.3d 70 (Ark. App. 2019)
Newman v. State, 567 S.W.3d 110 (Ark. App. 2019)
Martin v. State, 567 S.W.3d 558 (Ark. App. 2019)
Lane v. State, 564 S.W.3d 524 (Ark. 2019)

A 13

Porras v. State, 2018 Ark. App. 592 (Ark. App. 2018)
Jester v. State, 2018 Ark. App. 558 (Ark. App. 2018)
Akram v. State, 560 S.W.3d 509 (Ark. App. 2018)
Rogers v. State, 558 S.W.3d 833 (Ark. 2018)
Vaughan v. State, 555 S.W.3d 922 (Ark. App. 2018)
Daniels v. State, 551 S.W.3d 428 (Ark. App. 2018)
King v. State, 2018 Ark. App. 309 (Ark. App. 2018)
Dortch v. State, 544 S.W.3d 518 (Ark. 2018)
Woods v. State, 548 S.W.3d 832 (Ark. App. 2018)
Taffner v. State, 541 S.W.3d 832 (Ark. App. 2018)
Steen v. State, 545 S.W.3d 789 (Ark. App. 2018)
Sampson v. State, 544 S.W.3d 580 (Ark. App. 2018)
Bullock v. State, 544 S.W.3d 566 (Ark. App. 2018)
Radford v. State, 538 S.W.3d 894 (Ark. App. 2018)
Hill v. State, No. CR-17-165 (Ark. App. 2018)
Reynolds v. State, 538 S.W.3d 223 (Ark. App. 2018)
McKinney v. State, 538 S.W.3d 216 (Ark. App. 2018)

A 14

